Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





     HEAD START EXPANSION:

     GRANTEE EXPERIENCES





                      , SERVICEo




               'l1!
                      Q3a


                MAY 1993
                          OFFICE OF INSPECTOR GENERA

 The mission of the Offce of Inspector Oeneral (010), as mandated by Public  Law 95- 452 , as amended
 is to protect the integrity of the Department of Health and Human Servce ' (HHS) programs as well
 as the health and welfare of beneficiaries served by those programs. This statutory mission is carried
 out through a nationwide network of audits, investigations , and inspections conducted by three 010
 operating components: the Offce of Audit Servce , the Offce of Investigations, and the Offce of
 Evaluation and Inspections. The 010 also informs the Secretary of HHS of program , and management
 problems , and recmmends courses to correct them.

                               OFFCE OF AUDIT SERVICE
The OIO' s Offce of Audit Servce (OAS) provides all auditing servce for HHS , either by conducting
audits with its own audit resource or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carryng out their respective
                                                                     HHS programs and operations
responsibilties and are intended to provide independent assessments of
in order to reduce waste, abuse , and mismanagement and to promote economy and effciency
throughout the Department.

                               OFFICE OF INSTIGATIONS
The OIO' s Offce of Investigations (01) conducts criminal , civil , and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of 01 lead to criminal convictions , administrative sanctions , or civil
money penalties. The 01 also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

                 OFFCE OF EVALUATION AN INSPECTONS
The OIO' s   Offce of Evaluation and Inspections (OEI) conducts short- term     management and program
evaluations (called inspections) that focus on issues of concern to the Department , the Congress , and
the public. The findings and   recommendations contained in these inspection reports generate rapid
accurate , and up- to- date information on the efficiency, vulnerability, and effectiveness of departmental
programs. This report was prepared in the San Francisco regional offce under the direction of Kaye
D. Kidwell, Regional Inspector Oeneral , and Paul A. Oottlober , Deputy Regional Inspector General.
Project staff included:

SAN FRCISCO                                         HEQUAR1ES
Jennifer Mallen, Co- Project Leader                 Wm. Mark Krushat , Sc.      , Mathematical Statistician
Brad Rolln, Co- Project   Leder                     Alan Levine ,   Program Specialist
Elizbeth Bell
Kathy Dezotte
                                      ATLA                                 CHCAOO
Robert Gibbons

Deborah Harvey
                                     Betty Apt                            Suzanne Johnson
Ellen Kotler                                        Ron Kalil
Donald Loeb                                         Chris Koehler
Brian Pattison
Alcia Simon                                         OFFCE OF INGATIONS
BOSTN                                              Baldur Krahl                          Jose Munoz- Caro

Timothy Corbett                                    AI TO FAMIE Wf                 DEPENDENT        CHRE
Lori Rutter
                                                   Agustin Quiles- Ocasio
                                                   Irelys Ramirez- Ramos

For additional copies of this report , please contact the San Francisco office at (415) 556- 6830.
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





     HEAD START EXPANSION:

     GRANTEE EXPERIENCES





                      ~ SERVICEo





               '0



                    'l1!~Q30



           MAY 1993 OEI-09-91- 00760
                     , "




               EXECUTIVE SUMMAR Y

PUROSE
This inspection assessed Head Start grantees ' and Administration for Children and
Famies staffs experiences during recent program expansions and their abilty to
handle future expansions.



BACKGROUN
Head Start operates on the premise that children are best prepared for success in
school when they and their parents participate in a comprehensive program that
addresses their educational , economic, social , physical , and emotional needs. In
addition to providing children with classes and health services , Head Start addresses
the needs of the entire family.

Both Congress and the Administration are committed to expanding Head Start. Since
Fiscal Year (FY) 1990 , the total funding for Head Start has increased more than
$1 billon , and the number of children served has increased by almost 300 000.


Within the Department of Health and Human Servces (HHS), the Administration for
Children and Families (ACF) is responsible for administering Head Start. The ACF
the Assistant Secretary for Management and Budget (ASMB), and the Assistant
Secretary for Planning and Evaluation (ASPE) requested that the Office of Inspector
General (OIG) review the implementation and status of Head Start expansion because
they were concerned that rapid expansion might jeopardize the quality of servces.

We selected a random sample of 80 regional and American Indian Head Start
grantees and delegates. From May through July 1992 , we conducted either on-site
visits or telephone intervews with each grantee and delegate using structured
discussion guides. In addition ,   we reviewed grantee and delegate agency records to
coHect management and performance data. At         the completion of the fieldwork , we
weighted the data and projected it to the universe of Head Start grantees and
delegates that had expanded. We also conducted intervews with aH 10 ACF regional
offces as weH as headquarters staff about their experiences and ability to provide
support for future expansions.



This report , which is one in a series prepared by the OIG concerning Head Start
expansion, reflects grantee and ACF staff experiences and opinions about expansion.
A companion report Evaluating Head Start Expansion through Performance
Indicators " (OEI- 09-91- 00762) used file reviews and selected indicators to assess the
impact of expansion on grantees. While we did not find any statistically significant
difference in grantee performance as a result of expansion , we found that the level of
grantee performance as measured by our indicators was considerably lower than the
level of performance reported by grantees and published by ACF. Because of
(1) inadequate grantee record keeping, (2) the lack of specificity in the Head Start
performance standards, and (3) the fact that many grantees disregard ACF policy
guidance , we were unable to determine if the program and performance data
weaknesses that we found reflect serious deficiencies in the quality of services
provided by Head Start.

FIINGS
Grantees described increased demands on staff and concerns about their ability to
provide quality services to families while expanding. They reported problems in such
areas as child enroHment , facilty acquisition , staffing, transportation , and social
servces. Nevertheless ,grantees told us that they were able to overcome most of these
problems. They are , however , concerned that some of these problems may become
insurmountable if they are not addressed in future expansions. Our specific findings
are:

Some grantees exerienced difculty enrolling children, and few plan to serve all eligile
4-year-old by 1993

Despite expansion and the existence of a large number of eligible children , 13 percent
of grantees were unable to enroH all of the additional children they planned under
expansion , and some grantees saw their waiting lists for enroHment increase. Based on
their experiences and knowledge about future expansions , grantees indicated that they
may not be able to serve all eligible 4- year-olds in the near future , primarily because
of the overwhelming number of eligible children in their service areas.

Th
       greatest challenge grantees faced durig   exansion was obtaining adequate and
affordable faciities



Grantees have had difficulty with the lack of adequate facilities in their servce areas
the poor condition of available properties , the timing of expansion funding, and the
high cost of rent and/or renovations. In addition , one- third of grantees believe that
their current space is inadequate to serve children and families sufficiently. Grantees
overwhelmingly support purchasing property as a cost-saving, stabilizing measure. The
Head Start Improvement Act of 1992 contains provisions allowing grantees to
purchase property.

Whil almst all grantees hired additional staff 40 percent had difculty fiing qualifed
staff

Grantees cited the lack of qualified appJicants and their inability to offer acceptable
salaries and benefits as the major barriers to finding qualified staff.
Exnsn hinred grantees ' abil to provide adequate transportatin
Larger servce areas and increased enrollment have affected grantees ' ability to
provide transportation , although ACF has been responsive to grantee requests for
additional vehicles.



Exansn increased the demand on social services
Social servces components are faced with an increased number of dysfunctional
familes and children with special needs as well as reduced availability of community
servces.

Both grantees and ACF are hinered   by inadequate planning


Planning is vital for grantees to expand. More than half the grantees did not receive
timely expansion funding. Grantees cited the need to add management staff and are
concerned that their problems wil be exacerbated with future expansions.

RECOMMATIONS
Because Head Start has changed dramatically since its inception during the 1960s
ACF should restructure the way it plans for and implements future Head Start
expansions. In doing so , ACF should:


       Develop regional expertse and offer grantees better assistance with facilties.
       Guidance should include appropriate safeguards against fraud and abuse in its
       implementation of the facility purchase provisions of the Head Start
       Improvement Act of 1992. Furthermore , ACF should ensure that it provides
       grantees clear guidance and technical assistance when purchasing or otherwse
       acquiring facilities.

      Develop strategic and long-range plan to handle future expanions better. The
      goal of these plans should be to help grantees plan for future funding and
      enrollment increases , to address administrative and management weaknesses
      and to otherwse evaluate and implement program improvements.

      hnprove its traig and techncal assistance and reevaluate the effecteness of
      its technca assistance contracts. The ACF should evaJuate grantees ' utilization
      of each resource , the appropriateness of the training offered by each
      organization to the grantees ' overall training needs during expansion , and the
      quality of each training resource as measured by grantee evaluations.
                 ..... ..
 . .. .................
              .. .........
 ................., ,
 "   ..                           , "




AGENCY COMMNT

We received written comments on the draft report from ACF, ASPE, and ASMB.
The ACF concurred with the first two recommendations but requested that we clarify
the recommendation concerning training and technical assistance. We have modified
the recommendation so that it is more directly linked to our finding that grantees
underutilzed traditional Head Start training resources during expansion. We have
also addressed ACF' s concerns about several details in the report's findings and have
added language to explain that the report is based solely on the opinions of grantees.
These opinions shed light on the attitudes and outlook of the individuals who will be
responsible for implementing future expansions and , as ASPE stated in their
comments      have direct relevance to policy decisions being made about how future
expansions are handled...

The ASPE and ASMB provided useful comments and suggestions , many of which we
have incorporated in the finaJ report. In response to specific comments from ASPE
we have added information about the companion report EvaJuating Head Start
Exansion through Performance Indicators. " We have also modified the executive
summary and recommendations to reflect ASPE' s concerns. In response to comments
from ASMB , we have further clarified that the report is based solely on the opinions
of grantees and not on the record- based review that is the subject of the companion
report on performance indicators.

The complete text of the ACF comments and a detailed response is contained
appendix A. The complete text of the ASPE and ASMB comments can be found in
appendix B.


     u................. .

                                                                                                         . . . . . . . . . . . . . . . ..
                . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . . . . . . ..




                    TABLE OF CONTENTS

EXCU SUMY

INODUCTON. .                                                                                                              . . . . . . . . . . .. 1
FIINGS. .                                                                                                   .................5
 . Enrollment                                                                                                  ................5
 . Facilities. .                                                                                               ................6
 . Staffng..                                                                                                .................9
 . Transportation                                                                                                      .............9
 . Social services. 



 . Planning ....................................................


RECOMMNDATIONS AN AGENCY                                             COMMNT. .
APPENICE
      ACF Comments on the Draft Report and Detailed OIG Response

      ASPE and ASMB Comments on the Draft Report
                                             INTRODUCTION

 PUROSE
 This inspection assessed Head Start grantees ' and Administration for Children and
 Familes staffs experiences during recent program expansions and their ability to
 handle future expansions.



 BACKGROUN
 Head Start operates on the premise that children are best prepared for success in
 school when they and their parents participate in a comprehensive program that
 addresses their educational , economic, social , physical , and emotional needs. In
 addition to providing children with classes and health servces , Head Start addresses
 the needs of the entire family.

The Administration for Children and Families (ACF) is responsible for administering
Head Start. The ACF, the Assistant Secretary for Management and Budget (ASMB),
and the Assistant Secretary for Planning and Evaluation (ASPE) requested that the
Offce of Inspector General (OIG) review the implementation and status of Head
Start expansion. This report is one in a series prepared by the OIG on this subject.

Th      Head Start Prgram
Head Start is a child development program funded primarily by the Federal
government. At the headquarters level , the Head Start Bureau provides leadership
and develops legislative and budgetary proposals for Head Start management and
operations. In each regional office , ACF' s Head Start and Youth Branch monitors all
Head Start programs , except American Indian and migrant programs which are
monitored by branches within headquarters. According to ACF, Head Start served
approximately 622                000 children with FederaJ support of $2. 2 bilion in Fiscal Year
(FY) 1992.


Head Start programs are community- based , so agencies can respond to local needs
and coordinate with other community organizations. As a resuJt , program options
locations , and hours vary. The Federal government awards grants to a public or
private nonprofit agency (called a grantee) to operate a Head Start program. A
grantee may contract with one or more other pubIic or private nonprofit organizations
in the community (called delegates) to run all or part of its Head Start program. For
the purposes of this report , we will refer to both grantees and delegates as "grantees
unless specific differences need to be noted.

Head Start programs consist of four major components:
                                                         health , education , social
services      and              Specific performance standards for each of these
                     parent involvement.

components require , among other things , that grantees:
            develop children s intellectual skills by encouraging them to solve problems

            provide children medical and dental examinations

            offer children nutritious meals and snacks , and

            identify familes ' social service needs and work with other community agencies
            to meet those needs.



The two major program options center-   based and  home- based are both regarded as
effective means of serving children and families. The center- based mode) focuses on
the child , while the home- based model focuses on the parent. Home-based programs
where servces are offered in the home rather than a classroom ,must adhere to the
same policies and offer the same range of comprehensive services as center-based
programs.

Head Start Exansn

Both the Administration and Congress are committed to expanding Head Start. The
Head Start Supplemental Authorization Act of 1989 and the Dire Emergency
Supplemental Appropriation of 1990 marked the beginning of expansion for all
grantees and provided funding for the first two expansions. Since FY 1990 , the total
funding for Head Start has increased more than $1 bilion , to an FY 1993 total of
$2. 779 bilion. The Human Services Reauthorization Act of 1990 continues the Head
Start program through FY 1994 with the goal to serve all eligible children by 1994.
The following table summarizes the allocated funding increases:

                              HE START EXPANSIONS , 1991993
                     Fiscal     Announcement         Proposed Number       Funds to        Additional
                     Year           Dale              of Additional    Expand Enrollment   Expansion
                                                         Children                           Funding

 Exnsion             1990     February 6 ,   1990           500            $99 980. 000     $51 335, 000

 Exansion            1990     June 12, 1990                 000           $165 315 000        None

 Exansion            1991     undated                    51, 000          $159 447. 000    $240 363, 000

 Exansion            1992     February 19 ,   1992          500          $131 513. 000     $118 487 000

 Exansion            1993     December 17 , 1992        100 000          $372 706 000      $201 779 600

 TOTAL                                                                   $92 961           $611   96,

The additional expansion funding, identified in the chart above , was set aside for such
things as quality improvement , salary enhancement , cost-of- living increases , and
training and technical assistance improvement. Grantees generally use quality
improvement funding to increase salaries and benefits , strengthen the social servce
parent involvement , and/or health components , improve servces to disabled children
                     , "




 initiate or improve family literacy programs , and/or otherwse enhance servces to
 children and families.

 For regional grantees (those monitored by ACF regional offices), the Head Start
 Bureau allocated expansion funds in FYs 1990 and 1991 based on the population in
 each State , as required by statute. It then allocated funds to counties based on the
 proportionate number of eligible children , taking into consideration the amount of
Federal funding already received by the grantees in each county. The Head Start
Bureau also set aside a portion of expansion funds for American Indian grantees , who
could apply for expansion funds if they were not serving all eligible children in their
servce area.

The Head Start Bureau also allocated expansion funds to unserved counties based on
the proportionate number of eligible children. Public and private nonprofit agencies
(including existing grantees) competed to operate programs in the unserved counties.

To receive the allocated funds , grantees submitted expansion proposals. These
proposals specified planned objectives , such as the number of additional children they
would enroll and the staff they would require to serve these chiJdren. The Head Start
Bureau advised grantees to prepare proposals that would resuJt in high quality servces
that fully comply with the Head Start performance standards.

Concer about Exansion
This report is one in a series prepared by the OIG concerning Head Start Expansion.
A companion report Evaluating Head Start Expansion through Performance
Indicators " (OEI- 09- 91- 00762) used file reviews and selected indicators to assess the
impact of expansion on grantees. While we did not find any statistically significant
difference in grantee performance as a result of expansion , we found that the level of
grantee performance as measured by our indicators was considerably lower than the
level of performance reported by grantees and published by ACF. Because of (1)
inadequate grantee record keeping, (2) the lack of specificity in the Head Start
performance standards , and (3) the fact that many grantees disregard ACF policy
guidance , we were unable to determine if the program and performance data
weaknesses that we found reflect serious deficiencies in the quality of services
provided by Head Start. A 1991 OIG study, " Readiness for Head Start Expansion
(OEI-02- 91- 00741), found that grantees were meeting their expansion goals for
FY 1990.

METHODOLOGY

We selected a random sample of 80 regional and American Indian Head Start
grantees and delegates. We conducted a separate study of migrant grantees because
of the unique nature of their programs (see " Migrant Head Start Grantees:
Perspectives and Challenges " OEI- 09-91- 00761). From a universe of the 50 States
plus the District of Columbia , Puerto Rico , and the Trust Territories (hereafter
 referred to as " localities), we randomJy selected eight localities with probability
 proportional to size with replacement. As a result , California was selected twce. The
 total amount of Federal funding received in FY 1991 determined the size of each of
 the localities. The following table presents the localities selected , their probability of
 selection based upon their total budget , and the number of grantees , original and
 adjusted , in each location.

                                                                    Probability          Number of Grantees
                                         Total Budget
                 State                                                                   Original   Adjusted
                                         All Grantees                 Selection
    California (One)                       $184 762 665                10. 87%             133
    California (Two)                       $184 762 665                10. 87%             133
    Florida                                 $57 466 594                  3.38%
    Maine                                       601 468                  0.45%
    Michigan                                $71 904 040                    23%
   Puerto Rico                              $70 947 229                    17%
   Texas                                    $95 413 705                    61%
   Washington                               $24 586 682                  1.45%
   Sampled                                $697 445 048                 41.03%
   All States                              700 448 467

Because not all grantees and delegates received expansion funds , not all were eligible
for selection at the second stage of sampling. At this stage , we selected grantees and
delegates using simple random sampling until we obtained 10 grantees or delegates
who received expansion funds in FYs 1990 and/or 1991.

The adjusted number of grantees in the above tabJe represents the estimated number
of grantees and delegates that received expansion funds based upon our sampling
results. Projections used in this report are based upon this adjusted number of
grantees.

From May through July 1992 , we conducted either on-site visits or telephone
intervews with each grantee and delegate using structured discussion guides. For                         the
delegates in our sample , we also interviewed their parent grantees about their
experiences managing expansion. In addition , we reviewed grantee and delegate
records to collect management and performance data. We also conducted intervews
with all 10 ACF regional offices as well as headquarters staff about their experiences
with and ability to provide support for expansion.

The following findings reflect grantee and ACF staff experiences and opinions about
expansion. The quotes reflect the generaJ sentiment of Head Start directors and ACF
and grantee staff, not just the opinion of one director or staff person. We conducted
this inspection in accordance with the
                                                                         issued by the
                                                   Quality Standards for Inspections 


President' s Council on Integrity and Efficiency.
                                                   FINDINGS

 SOME GRAES EXPERINCED DIFICULTY ENROLLING CHREN
 AN FEW PLA TO SERVE AL ELIGIBLE 4- YE-OLDS BY 1993
 Thireen percen of grantees were unable to enroll all of the additional chilren planned
unr exansion
 With the first 3 expansions , ACF funded grantees to enroll 148 500 additional children.
 Grantees enrolled approximately 94 percent of this total. Our projections show that
 181 grantees were unable to enroll 8 700 children who had been funded under
 expansion. The major reasons were (1) obtaining, renovating, or licensing facilities
 (2) planning and management obstacles , and (3) finding eligible children. Specifically,
of the 181 grantees



           more than 30 percent were unable to obtain facilities , and an additional
           15 percent were unable to complete facility renovations prior to the start of the
           school year;

           approximately half identified management issues , such as the need to
           reorganize , hire management staff, or develop computerized systems; and

           more than a quarter were unable to find eligible children.

Desite exansn, more than 40 percent of Head Start directors report an increase or no
efect on the nuber of childen on their waiting lists
Directors indicated that Head Start s increased visibility and credibility in recent years
have resulted in more community interest and increased applications. Other grantees
reported that expanding to previously unserved areas , better recruitment efforts , and
increased poverty in their servce areas have resulted in increased waiting lists.

Approximately 30 percent of the directors noted only a small reduction on the length
of their waiting lists. A quarter of the grantees said they have enrolled more
  year-old children since expansion. These grantees were less likely than others to
experience large decreases in their waiting lists.

More thn      75   percent of all grantees applied or planned to apply for both the   1992   and
1993 exansons

Almost all grantees believe there are sufficient children to warrant further expansions
but some grantees are already serving all eligible children in their service area. In
addition to these grantees who can t expand , other grantees will not apply for
expansion funds because they cannot locate facilities or they don t believe that they
can handle another expansion at this time.
                         .............................
                         ......................
                                  ........................        .........
                                                --...........---....... ...----.. -..........
                                                                                    --...........
                          ----..........._-----........._-----..-...............---..........
                                                                                     ........-----




On one-qrter of grantees inicated that they plan to serve all eligile 4-year-old by
1993

At the time that we conducted intervews , which was prior to the 1993 expansion
announcement , grantees were pessimistic about their ability to serve all eligible
 year-olds by 1993. We specifically asked them whether they planned to serve all
                                                                school year , and , if
eligible 4-year-old children in their service areas by the 1993- 94
not, when they expected to , given their knowledge of the current and future pace of
expansion. More than 14 percent of                                               never
                                                 a)) Head Start directors said they would

able to enroll all eligible 4- year-olds. These grantees frequently reported that they are
servng only a very small percentage of the eligible children in their servce areas.
Only 41 percent of grantees predicted that they would serve all eligible 4-year-olds in
their servce areas by the turn of the century. The following chart ilustrates their
predictions:


                  When Will Grantees Serve All Eligible 4-Year- Olds?
                       Percent   of   Grantees
                100%



                 80%



                 80%

                                                                                39.
                 40%


                 20% .



                         1993-94       1995-97    By 2000 Never                  Don        No Answer
                                                    Response                     Know



TH GRETET           CHNGE GRAES FACED                                               DURING EXPANSION
WAS OBTAIG ADEQUATE AN                               AFORDABLE FACILIT
Grantees had to fi renovate, or build centers and classrooms

Approxiately one- third     of the grantees cited problems finding and renovating
facilities as the biggest challenge they faced during expansion. Almost all grantees
(95 percent) had to obtain additional space , and one- third of these (more than
450 grantees nationally) encountered major difficulties. More than 70 percent had to
renovate their newly acquired space. The major difficulties were:
                                                             , "         , "" "




       the lack of adequate facilities in their service areas

       the poor condition of the properties and/or the need for substantial renovation



       the timing of expansion funding (e. , delays until the end of the school year),
       and

       the high cost of rent and/or renovations.



Licensing and zoning were problems for approximately 10 percent of the grantees and
can be major obstacles in some parts of the country. For example , one grantee had
negotiated an agreement with a church to use a vacant lot for a portable , but the
county refused to license the facility because " the lot was a foot or two short" of the
local zoning ordinance requirement.

Some grantees addressed facility problems by using the home-based       option

Because they were unable to open classrooms , some grantees expanded enrollment in
existing home-based programs while others provided home- based servces for the first
time. The latter viewed the home-based option as a temporary solution. They plan to
return to center-based servces as soon as the facilities are ready for classroom use.


On-thir   of the grantees believe their   extig space   is inadequate

Grantees complained about sites that are " dismal , drab , and dreary, contaminated
with lead paint " and " so cramped for space that there is no place to hold parent
meetings while classes are in session. " The OIG staff came away with similar
impressions and observed that more than half of the Head Start centers and
playgrounds they visited were only adequate or poor. The size, safety, and location of
outdoor play areas was considered a liability at approximately one- quarter of the sites.
The OIG staff identified only 3 out of 45 centers they considered " models " for others
to emulate. The OIG' s Offce of Audit Services currently is reviewing Head Start
foster care, and day care facilities to assess compliance with State and local health and
safety standards.

Approximately 45 percent of the grantees who complained about their space said they
need completely new facilities. The others need upgrading or renovation , more space
and/or improved handicapped access. More than 68 percent of all grantees anticipate
facilty problems with future expansions.

Grantees also cite the need for training and technical assistance in obtaining and
renovating space. For example , they need specific training in working with electrical
engineers , architects , and general contractors. As one grantee said They speak a
totally different language. " Another grantee pointed out We didn t anticipate or
understand all the issues that would be involved in setting down a portable (e.
grading, sewers , required clearances , digging weHs for water). The result was that
things didn t go smoothly, and there was a 4-month delay in opening the site.

Fedal prohibitons againt purhaing propert with Head Start
proble
                                                                  fu excerbated
Since we conducted fieldwork , Congress passed the Head Start Improvement Act of
1992, which contains provisions allowing grantees to purchase facilities and may help
resolve grantees ' problems upon implementation. Prior to the passage of the
legislation, approximately 80 percent of the grantees believed it would be
advantageous to purchase property and stated that there is space available for
purchase in their servce areas. They believed purchasing property would:

       be cost effective

       improve the stability of their programs

       allow them to custom- build   or obtain more suitable facilities , and

       make it easier to acquire space by increasing the number of options.

Grantees are frequently faced with escalating rents and the possibility of eviction at
the end of a lease. Rents may escalate for a variety of reasons: gentrification of the
neighborhood , a school board or other public agency s need to generate revenue
because of budget shortfalls , or merely a landlord' s desire to take advantage of a
tenant who has invested considerable sums of money renovating a building. One
grantee summarized the experiences of many, " Owning property would protect us from
outrageous increases. Rents have been going through the roof recently. The monthly
rent for our administrative office increased from $275 to $825 in just 18 months.
Other grantees said that for the amount of rent they paid , they could have purchased
their centers three or four times. Others complained that they spend a fortune on
renovations only to be evicted at the end of their leases which tyically run from
1 to 5 years.



Although it wasn t easy to overcome these obstacles , grantees were usualJy able to
locate and renovate space without serious delay. Because of their perseverance , more
than half the grantees were able to locate new space within 3 months , and almost
three-fourths were abJe to do so within 6 months. Approximately 9 percent required
more than a year. Once they received their funding, grantees needed an average of
4 months to complete renovations. Approximately 13 percent needed more than
6 months.
                                                        , "          , "




WH ALOST AI GRAES
HA DIFCUTY FIING QUALIFIED STAF
                                          ll      ADDmONAL STAF, 40 PERCENT

Head Start staff are not just day care workers. They not only teach children and
parents , but also handle a diversity of problems from drugs to parenting to
multicultural and language barriers. As one director stated With our starting wages
    re not going to attract the kind of person who is bilngual , bicultural , etc. " Another
grantee s recruiting and hiring experiences are typical Due to the present economic
situation , we have had plenty of teachers and social workers applying. However, these
people don t have experience with preschool children.

Grantees believe the problems in recruiting and retaining staff are mainly two-fold:
the lack of qualified staff and the inabilty to offer acceptable salaries and benefits.
Although all grantees face both problems , rural grantees have a greater problem
finding qualified staff, and urban grantees have a greater problem offering competitive
salaries and benefit packages. These problems may become more intense as a result
of the 1990 reauthorization legislation that requires Head Start teachers to be certified
by September 30 , 1994.

Almost  half of the grantees reported offering salaries and benefits that were not
comparable to similar jobs in the community. Of these , 82 percent said this is a
barrer to hirig qualified staff. This is mainly a problem in urban areas where
experienced Head Start teachers are lured away by higher salaries and benefits. Head
Start competes for staff with the public school system , child care programs , and
community action agencies. Health insurance , sick days , and vacation time are not
part of many Head Start job packages. Salaries sometimes as low as half of those
paid to public school teachers prompted one director to comment The issues and
problems Head Start staff have to deal with are very complex. Staff capable of
handling these get better paying jobs eJsewhere. "
                                                We did not independently compare
the salaries and benefits among Head Start and other child care programs , but salaries
are a great concern to grantees.



EXANSION HIERED                 GRAES' ABILIT TO PROVIE ADEQUATE
TRSPORTATION
Thrt percent of grantees do not provide transportation for children. Instead , they
are located within walking distance of their service population , encourage parents to
carpool, utilize public school bus systems , or have worked with the local transit system
to design bus routes that are   accessible.

Of the grantees that provide transportation , more than one- third report that expansion
has had an adverse impact on their abilty to transport children. The problems arose
from (1) expansion into remote , rural areas , (2) increased enrollment that exceeds the
capacity of their vehicles , and (3) increased salary costs. More than 56 percent of the
grantees anticipate transportation problems with future expansions , including the need
for additional vehicles and longer distances to cover new and more remote servce
areas.

GeographicaHy dispersed servce areas pose particular problems.    One grantee claimed
that transportation problems in a remote area hampered its ability to maintain the
required 85 percent average daily attendance. Another grantee thought that it had
overcome distance , 20 feet of snow per year, and safety concerns by purchasing two
vans with four-wheel drive and anti- lock   brakes. The grantee was soon faced with
another problem , however , when the State decided to adopt Federal transportation
guidelines that specify children must be transported in school buses , not vans.
Increased enrollments have required grantees to send vehicles on double runs or
purchase additional vehicles. Several grantees requested funds for additional vehicles.
The ACF has been responsive to grantees ' requests , and only one grantee reported
that its request for a bus had been denied.

Grantees that purchased buses have experienced increased salary costs because of
State bus driver licensing requirements. Some grantees use vans , which carry fewer
chidren , for this very reason.

EXANSION INCRED               TI DEMAS ON SOCIA                 SERVICE
Grantees report that expansion increased the number of (1) families with complex
needs , (2) children with behavioral problems and special needs , and (3) familes with
drug and alcohol abuse problems. Not only did the number of these families increase
but also the severity of their problems. Almost 40 percent of grantees report that
currently enrolled children come from families who are economically worse off than
the families they served before expansion. This finding mirrors one from a November
1989 OIG study entitled " Dysfunctional Families in the Head Start Program: Meeting
the Challenge " (OAI- 09-89- 01000). The study found that the comprehensive needs of
dysfunctional families pose a special challenge for grantees. These familes need a
wide range of servces that place additional and frequently burdensome demands on
Head Start social service components.

Almost half of all grantees said that the greater number of children with certified
special needs increased the complexity and volume of their work as well as their need
for more supervisors. Certified special needs include children who are hearing
impaired , speech impaired , visually handicapped , crippled , and seriously emotionally
disturbed. These children frequently need modified physical facilities , modified
currcula , new or different feeding skiJs, and continuation of special medical care.

The diminishing availability of community servces for children and families worries
grantees. They are concerned about the decreasing numbers of professionals who are
willng to donate services , the increased burden on publicly- funded facilities , and the
diminishing number of doctors willing to accept Medicaid.
BOTH GRAES            AN ACF AR HIERED BY INADEQUATE PLAG
Lack of adequate planning overwhelm staff impair     morale,   causes unue stres, and
unnnin qulity
Twenty-five percent of grantees said that adequate planning is a critical factor in their
ability to expand. Grantees believe that expanding too quickly leads to management
compliance , quality, staffing, and facilty problems. Both grantees and ACF regional
staff believe they need time to assess past expansions before proceeding with new
ones. Long-range strategic planning is crucial. Typical comments included Head
Start needs a master plan 'we need to step back and see the impact of expansion
before moving on " and " our growth has outdistanced our administrative capacity.

Th   ACF Reginal Ofces suggest a more flexle     and fair   allocation system

To simplif and expedite the allocation of expansions funds , ACF decided to award
grantees a minimum of $50 000 , which operationally became the standard expansion
amount. Both grantees and ACF staff would like a more flexible needs-based       system
to replace or amend the arbitrary allocation of $50 000. One regional manager
summarized the views of many: "Allocations should be competitive and based on
need.

Regional staff suggested some solutions: allow for more regional flexibility in funding
decisions , eliminate the $50 000 minimum , and/or use census data to rank needy areas.
Regional staff emphasized the importance of using 1990 census data , rather than
updated 1980 census data , as a basis for determining need. Many grantees agreed
that the current statistical data are too inaccurate to be used for assessing community
needs and projecting the number of eligible children. As one regional manager said
 The 1980 data do not take into account the massive population shifts from region to
region. " The ACF began using 1990 census data for allocation of FY 1993 funds.

Approxitely half of the   grantees did not receive tiely exansion   fuing
Many grantees were unable to enroll children on time and incurred carry-over
balances , because they did not receive their expansion money until late in the school
year. In fact , 47 percent of the grantees were unable to enroll children before the end

expansion.
of the school year and , as a resuJt , twice as many had carry-over balances than before


Of the grantees who had carry-over balances , 41.4 percent had balances that exceeded
the minimum expansion figure of $50 000. Before expansion , only 18 percent of the
programs had carry-over balances exceeding $50 000.

Despite their concern about carry-over balances , only 13 percent of grantees requested
funding delays and only 4 percent refused expansion funding. Some directors believe
that refusing expansion funding wil lead to a complete cessation of all expansion
opportunities rather than the adoption of a more gradual approach.

Many grantees believe that even with adequate lead time , large expansions should not
occur on an annual basis. One director summarized I am afraid to tell my staff that
we are expanding again. Our days are already 12 hours.

Th   non-federal matching requiement was a problem for more than one-third of grantees

Exansion strained many grantees ' ability to meet the non- Federal share matching
requirement , i.e. , 20 percent of their total budget. Large expansions , one-time start-up
funds, the recession , and an increase in two- parent working familes have all
contributed to the matching problem. Some programs have doubJed in size. The
recession has limited business contributions. Parent volunteer hours have dropped as
more parents enter the workforce.

The matching requirement will become more burdensome in the future. More than
one-quarter of the grantees who did not consider matching to be a probJem during
past expansions expect problems in future expansions. To lessen the demands on
programs , grantees suggested lowering the match , excluding some types of funding
(e. , one- time costs for purchasing portables or renovations) from the match , or
elimating the match requirement altogether. Grantees would then be able devote

more time to servng children and families , rather than spending so much time
'beating the bushes " and accounting for matching funds.

Whle the intention of the matching requirement is laudable , some realities are
suspect. In- kind contributions can be a form of paper shuffing. One grantee found
another $10 000 just by reviewing its records again. Some grantees have been
 creative " for example, by counting parental transportation to the center and parental
attendance at home visits as in- kind contributions.

The ability to match Head Start funds in the future is a particular concern for
grantees. A tyical grantee comment is The public s perception of Head Start
expansion is that we have a lot of money and that we don t need anything. We have
lost a lot of donations. Business put us at the bottom of the pile for donations.

While 80 percent of the grantees that needed help durg exansion said they receied
astance, much of it came from in-house or private consultants
Traditional Head Start technical assistance and training--that offered by ACF regional
offces , the Public Health Service , or the Regional Access Project , for example--was
underutilized by grantees. As ilustrated in the chart on page 13 , fewer than half of
the grantees used training and technical assistance offered by these organizations
during expansion. Fewer than a quarter used that offered by the Head Start Bureau.
More than half, however, did use the Regional Resource Center.
                      Grantees Have Not Relied Exensively on Traditonal
                            Head          St
                                      Training During Exansion
           Percentage of Grante.e
     100


              hh.. h... ......... ... ..... ... ................ 


                                         BO.




                                                                                RO: Regional Office
                                                                                HSB: Head Start Bureau
                                                                                PHS: Public Health SelVice
                       HS8      PHS RRC            RAP     Other Dldn   l U..   RRC: Regional Resource Center
                                                                                RAP: Regional Access Project
                                    Training Source




Grantees that used the traditional training sources were relatively satisfied. Almost
70 percent of the grantees that used any of these sources believe their needs were
fully met. Many grantees do not use these sources , however, because they consider
the training to be incomplete , inappropriate , and inaccessible. According to one Head
Start director They don t have travel money, and I can t afford to send my staff to
them. How can I utilize the training if it's not available to me here?" Another
director described the Head Start Bureau and regional office trainings as ' 'very limited"
while stil another said A lot of helpful information does not get out of the regional
offce. " Furthermore, some delegates complained that their grantees limited their
access to traditional training and technical assistance.



Grantees need additional management staff to handle future exansons

Proper planning and implementation of new procedures requires an adequate number
of experienced and trained management staff. Approximately one- third of grantees
considered management issues to be their biggest challenge for future expansions.
Grantee directors and ACF regional staff worry that not enough of the expansion
funding is spent on management and program administration , including
computerization.
Grantees antcipate        myd problems   wih futue     exansons
According to grantees , the problems they faced during previous expansions win not
only continue but probably win increase with future expansions. The fonowing chart
summarizes the most common problems anticipated by grantees:

                                SIGNICAN PROBLE
         Anticipated Problems     Percent Mentioning                   Common Barriern

 Facilties                               68.                    Availabilty, zoning reuirements

 SeJce For Children                      61.7                     Overall shortge of servce

 SeJce For Families                      59.                      Overall shortage of servce

 Transporttion                           56.                     Need for additional equipment

 Staff                                   43.                   Lack of qualifed sLaff,   low salaries

 Matching Federal Funds                  41.7            Support agency cUlbacks ,   fewer volunteer hours
                   RECOMMENDATIONS

Because Head Start has changed dramatically since its inception during the 1960s
ACF should restructure the way it plans for and implements future Head Start
expansions. In doing so , ACF should:


      Develop regional experte and offer grantees      specialed assistance with
      facities. Guidance should include appropriate safeguards against fraud and
      abuse in its implementation of the facility purchase provisions of the Head Start
      Improvement Act of 1992. Furthermore, ACF should ensure that it provides
      grantees clear guidance when purchasing or otherwse acquiring facilities.
      Develop strategic and long-range plans to handle future expanions better. The
      goal of these plans should be to help grantees plan for future funding and
       enrollment increases , to address administrative and management weaknesses
       and to otherwise evaluate and implement program improvements.

      Improve its traig and techncal assistance and reevaluate the effecteness of
      its technca assistance contract. The ACF should evaluate grantees ' utilization
       of each resource , the appropriateness of the training offered by each
       organization to the grantees ' overall training needs during expansion , and the
       quality of each training resource as measured by grantee evaluations.

AGENCY COMMNT

We received wrtten comments on the draft report from ACF, ASPE , and ASMB.
The ACF concurred with the first two recommendations but requested that we clarify
the recommendation concerning training and technical assistance. We have modified
the recommendation so that it is more directly linked to our finding that grantees
underutilized traditional Head Start training resources during expansion. We have
also addressed ACF' s concerns about several details in the report s findings and have
added language to explain that the report is based solely on the opinions of grantees.
These opinions shed light on the attitudes and outlook of the individuals who wil be
responsible for implementing future expansions and , as ASPE stated in their
comments      have direct relevance to policy decisions being made about how future
expansions are handled...

The ASPE and ASMB provided useful comments and suggestions , many of which we
have incorporated in the final report. In response to specific comments from ASPE
we have added information about the companion report Evaluating Head Start
Exansion through Performance Indicators. " We have also modified the executive
summary and recommendations to reflect ASPE' s concerns. In response to comments
from ASMB , we have further clarified that the report is based solely on the opinions
of grantees and not on the record- based   review that is the subject of the companion
report on performance indicators.
The complete text of the ACF comments and a detailed response is contained
appendix A. The complete text of the ASPE and ASMB comments can be found in
appendix B.
       APPENDIX A

ACF COMMNT ON TH DRA REORT
       DETAID OIG REPONSE
                                     OIG REPONSE TO ACF' S                   COMMNT

GENERA CONCERNS

ACF COMM                         (page 1):              we do have some concern which stem from the way in
 which the information for the report was gathered and the presentation of some of the
findings. As we understand it, the report is based solely on grantee or staff perceptions
and attitues. These perceptions                         are very sensitive to the way the questions were asked
and when they were asked. The result is a report which mixes fact and opinion. On page
5, for example, the title reads: 'Some grantees experienced difculty enrollng children. '
This statement is undoubtedly factual and , as noted above, consistent with our
observations. On page however, the report states that '                 percent of all
                                                                                 more than   14

Head Start directors said they would never enroll all eligible 4-year-olds. ' The report does
not state what assumptions were made by the directors in answering this question, nor the
context in which it was asked. It is thus dificult to understand what the                         14%   statitic
means, partcularly as we would assume that given suffcient resources all programs could
eventually serve all eligible 4-year olds.

OIG REPONSE: We have added the following caveat to the introduction to the
report: " The following findings reflect grantee and ACF staff experiences and
opinions about expansion. " The inspection was designed to elicit grantees ' experiences
and perceptions about expansion ,                          including their predictions about their ability to
expand in the future.

Grantees were highly pessimistic about their ability to serve all eligible children
regardless of resources. The number of eligible children in some servce areas is
several thousand , far larger than existing grantees could serve, even with future
expansions. Therefore , ACF' s statement that " we would assume that given sufficient
resources all programs could eventually serve all eligible 4- year olds... " is not accurate
according to grantees. We have , however, revised the section on eligibJe 4-year-olds to
clarify how we asked the question.

ACF COMMNT (pages 1-                             2):    This type of problem is also found in other sections of
the report,      partcularly the discussion on training and technical assistance, in which a
distinction is made between 'traditional' and other types of training and technical
assistance. We do not understand how the chart and discussion on pages       12- 13 help
inform future policy decisions about the expansion process or our training and technical
assistance program... "

OIG REPONSE: We have revised the report to emphasize that we asked grantees
about their utilzation of specific training resources , such as the regionaJ offices
regional resource centers , and Public Health Service. We designated this group of
HHS components and HHS contractors as " traditional" sources. Head Start grantees
have negative impressions of these resources , and a significant percentage of Head
Start grantees are not receiving training and technical assistance from them.
Furthermore, many of the grantees who use these resources are not receiving quality
assistance, in their opinion. In this context , the finding and the chart we used are
intended to provide information about ACF' s need to reevaluate its training and
technical assistance. On this basis , we made our third recommendation.

ACF COMMNT (page 2): 
             We would also suggest that the report provide more
descriptive information on the methodology used so that the reader wil be aware that, in
some instances, opinions or 'predictions ' were elicited from the interviewees. This is
especially important because of the selective use of quotes in the report. We are unable to
judge whether the many quotes throughout the report are truly reflective of the opinions of
Head Start staff or if they represent the opinion of just one Head Start Director. Our
 concern is that these quotes wil be read as representing the opinions and experiences of
all Head Start grantees and that conclusions will be drawn which may be inaccurate
when applied to the greater Head Start community.

OIG REPONSE: As mentioned               above , we have added the folJowing caveat to the
introduction to the report: " The     folJowing findings reflect grantee and ACF staff
experiences and opinions about expansion. " In addition ,    we have added the statement
 The quotes reflect the general sentiment of Head Start directors and ACF and
grantee staff, not just the opinion of one director or staff person. " We also have
clarifed many of the quotes in the body of the report to ilustrate that the quote
reflected the sentiments of several or many Head Start directors and staff.

SPECIFIC COMMNT

On pages 2 and 3 of its comments , ACF made specific , technica1 comments and asked
that we clarify other statements in the report. We have addressed alJ of these
comments by making necessary revisions , clarifications , and additions to report.

RECOMMNDATIONS

ACF COMMNT: 
            With regard to the first recommendation, the change in authority
regarding the purchase of facilities has, of course, considerably altered the nature of the
regional experte and technical assistance that is needed in this area. We wil work to
identify the specifc types of expertise and assistance grantees wil need, and then to find
ways to provide these. A "Head     Start Facilties Manual" (the exact title has not been
decided) is currently in draft form, and wil be ready for dissemination to the regional
offces and to grantees within the next few months. We hope that this manual will be of
great assistance as grantees explore new approaches to solving problems with facilities.

OIG REPONSE: No response is necessary.

ACF COMMNT: 
            We agree with the second recommendation regarding strategic
planning, and wil endeavor to provide regional offce staff and grantees with the
maxmum time available to carr out future expansions. However, we note that the recent
expansions of Head Start were, in fact, based on a long- term   Administration plan for
universal Head Start that was transmitted to the regional offce staff and to grantees.
Given the timing constraints on the appropriation cycle, the requirement that funds be
obligated in the fical year of an appropriation, and the recent legislative requirement that
guidance on expansion be sent to grantees within 90 days of an appropriation, there was
not suffcient time for planning of the type described.

OIG REPONSE: No response is necessary.

ACF   COMM:           The third recommendation regarding the relationship between
technical assistance contracts and implementing Head Start expansion is not clear. We
would appreciate the opportunity to discuss this matter further with you so that the
recommendation can be fully understood and any necessary action taken.

OIG REPONSE: We have revised and clarified the recommendation to more
directly link the recommendation with our finding that grantees underutilized
traditional Head Start training resources during expansion.
         APPENDIX B

ASPE AN ASMB COMMNT ON TH   DRA REPORT
                                .:.-. :
                                ....        -.   ,' ,=..,
                                                    !:
                                                    :; j\   ,!,   j=j                                                 -".    ,_--"


                    DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                    Offce of the Secetary

:t.....o
                                                                                                              Washington . D. C.     20201

                                                                        JAN , 3 100
                                                                                                  PDIG  "'--
                                                                                                  DIG-AS '
             TO:              Bryan B. Mitchell
                                                                                                  DIG-EI
                                                                                                  DIG-OI
                              Pricipai Deputy Inpecor General

                                                                                                  AIG-MP
                                                                                                  EXSEC -i-'''          ;7;
                                                                                                  OGC/IG
             FROM:            Assistat Secetifor                  Planng and Evaluation
                                                                                                  TJA'TSF

             SUBJECT:         Comments on OIG Dra Report:                    Head Sta Expanion: Grate Experiences
                              OEI-Q-91-O760


            Than you for the opportty to review the                     dr
                                                          report of this importt inpecon.
            and its companon " Evaluatg Hea Sta Expanion Thugh Performce Indicators This report
                                                                                             , " both have the
            potential to guide HHS policy in the comig month. I believe these are among the most  signficant
            report your offce has produced on children
                                                         s isues in recent yea. I am extremely concerned
            however, that the fidings are not cuently presented so as to maxime their utiity for futue policy
            discussions. I am parcuarly concerned with the recmmendatons secon of the report
                                                                                                    and the
            executive summar. In addition , the two report on Hea Sta expanion are
                                                                                        closely related and
            should refer to one another more than they do now.

            Below I describe what I consider an appropriat presentaon for this
                                                                                reprt If changes such as those
            below are not mae , I request that these comments be included at the end of the
            also   ated notaon of severa mior language clarficaons my                                       fi report. I have
                                                                                           sta have suggested.

            OIenine- Secion

           The experience of grtee reported in this inpecon have direc relevance to policy decisions being
           mae abut how futue expanions are handled , and in parcuar the
                                                                            disbution of fuds for FY
           1993 and beyond. I recmmend that the openg secon of this
                                                                     report   eslis   this contex in which
           the fidings should be viewed.



           In addition ,this report should more exlicitly reference the " perormce indicars
           parcuar it should                                                                    " report. In
                                clealy note that while that report found that              not yet had an effec
           on the quality indicars examed, the progratc weaessesexanion               has
                                                                              reprted in that report combined
           with the loca and federa
                                       maement concer expresed in this report
           about reainess for futue expanion. Improvig quaity and management rae          signficat questions
                                                                                     in the face of future
           expanion must be addresed as the progr moves forward.

           Recmmendations Secon

           I am extremely disappointed in the recmmendations secon
                                                                    of this report The recmmendations as
           wrtten do not reflec the serousness of the ises raed in the findings and are not specific enough to
           guide ACF and the Secet in mag progJmm c and
 rlmini. trative changes which should be
           considered. I suggest the recmmendaons reflec                  the following:

                                                                                                                            Dwrn
                                                                                                            fom
                                                                                                                  .M 111S I
                                                     i;J
                                          i !-
                                                 '.""";=0                                                       DIG OEI IX
             . .




  Page 2 - Bryan B. Mitchell




  1. Progra mangement at the fedenll, grntee, and projec level -              Since your inpectrs found
  weaesses overall in the magement of Hea Sta grts , and ha\: said inormly that
                                                                                      they
  believe the cuent federal manement strcte should be reconsidered , a recmmendation for a
  form and overal magement review of the program would therefore see
                                                                         appropriate. The
  fidigs of the performce indicars report simarly suggest the nee for such a review. Given the
  large amount of fuds, grts ,and projec involved, contiuing to maage the progr in the same
  way as durg the 19705 is questionable.

 2. Matchng requirements and facilities purche - As you note , the Hea
                                                                       Sta Improvement ACt
 pased in Octber of 1992 makes changes       in the progr   in the   area of matching requirements and
 facilties purchase. Both these area are ones in which there is potential for inequitale
 implementation acrss regions as well as for frud and abuse. Parcularly since
                                                                                  it is likely that the
 OIG wil be asked a couple of yea from now to audit implementation of these new provisions
                                                                                                  , we
 suggest that this report provide up- front guidance to ACF regarding what guidelines and safeguards
 should be put in place , based on your knowledge of problems in other federa progr.

 3. Strategc planing - I would suggest providing more        det
                                                         regarding the recmmendation for
 long rage and stregic plan. In parcuar , the recmmendaon should briefly, but explicitly,
 discus the faCt that choices have been mae and wil contiue to be mae abut how to spend the FY
 1993 fuding increae as well as any futue increaes. Trae-Qff wil be mae beteen
 additiona children , increaing the hours of progr operon
                                                                                     servg
                                                           , strengtenig the quality of exitig
 services , and addressing adstrtive and manement weaeses. Ea of these choices has
 consequence for the direcon of the progr, and should be considered in a systematc
                                                                                     faion
 resultig in a stregic plan that shapes   progr spendin in the comig yea.
4. Traning and tecnical asistace on both    progr and progr maement matter - The
Hea Sta Bureau has recgned the weaes in its            trgand tecca asisce effrt , and is
in the proce of reorganing them. Does this effort satfy your concern abut T rr A (in which
cae the recmmendaton should probably support these changes) or are there additional concerr
                                                                                            that
should be addressed (in which cae more     det
                                           is necessar).

Exective Summar

The Exective  Summ should include a pargraph on the policy context in which this report should
be viewed (as descrbed abve) and the relatonsip beteen this report and the perrmance
indicars report. The recmmendations secon of the Exective Sumar should               reflec changes
mae to the recmmendatons secion as suggested abve.

Should you have any questions about our co        ts, pleae contaCt   Ann Segal of my sta   at
690-7148.




Attchment
            .'




 Minor Clarifications in Lan!!Ual!e SUl!l!ested

        Page Ii (and other places) says that the Head Sta Improvement Act "permts
                                                                                         grtee
purchase faciities. " This language suggests that the act ::':ady perts faities purchase at
discretion. In fact as we underta it, the law is more circumsec reqg HHS approvalgrtee           of
requests for purchase of facilties and alowing theSecet        to set gudelines for such purchases.
Relat to this, the discuion of facilties on pages 7- 8 is mileag bece it      presents only the
advantaes , and not the diadvataes , of faciities purchase. While the IG' s offce has expresed
concern abut facilties purchases in other conte   , this report  to point out such conce and
                                                                  fa
leaves the reaer with the impression th such purchases are
                                                           undoubtey an effecve solution 10
grtee conce.
       Page 2 taks abut " the Admtron. " Durg this tie of trition
                                                                           , and depending on
when the report is actally issued , this language nee clarficaon (or omiion).

       Page 2 conta the phrae " all eligible children (including four yea olds). " Why does
nee the clarfication that eligible children includes four yea olds? Was this intended to be
paculaly four yea olds, perhaps?
(.     ,. .
        . .    ..                                                                                               ')         ,",_.

                                                                                               t'JJJ.\7
                      DEPARTMENT OF HEALTH &. HUMAN SERVICES DIG-A                                                      / ul       the Seaetary
                                                                                               DIG-EI
                                                                                               DIG OJ
     '...Id                                                                                    AIG-MP                    (\A'        . D. C. 20201
                                                                           JAN 25 199          OGC/IG

                                                                                               EXSEC
              TO:                      Bryan B. Mitchell                                       T),ATESE
                                       Principal Deputy Inspector General 



                                                                                        C'rJ     /7-/
              FROM:                           zabeth                          es

                                             ting Assist nt se                                                       eme ";        Budget
              SUBECT: OIG Draft Report: "Head start Expansicm:                                                                  Grantee
                      Experiences, " OEI-09-91-00760
              Thank you for the opportunity to review the draft report 
                                                            Head
              Start Excansion: Grantee Exceriences . This report as well as
              OIG' s two other companion reports on Head start expansion will be
              very valuable to the program at this point in its history. 

              have several general as well as specific comments and

              recommendations on this report.


              GENERAL COMMNTS

                          The two reports,                          Grantee Exceriences                   and        Performance
                          Indicators ,as currently drafted appear to contradict each
                         other.  Grantee Experiences leads the reader to believe

                         there are significant problems with expansion, whereas

                         Performance Indicators seems to prove that expansion alone

                         has not yet caused significant problems. We suggest the IG
                         attempts to integrate the findings of these reports so a

                         reader of both reports is not left confused.

                         Grantee Excerience is based on the feelings and opinions

                         that Head Start grantees expressed during interviews.

                         However, the second IG report in the series,
                                                  Performance
                          Indicators ,
                                     is based on a statistical analysis done by IG
                         investigators. This distinction is important and should be

                         highlighted in the Executive Summaries.


                         Grantee Exceriences suggests that all of the problems

                         grantees are currently having are caused by expansion, when

                         in fact they may be inherent in the Head Start program and

                         have only been exacerbated by expansion. For example,

                         grantees would still have problems finding affordable

                         facilities even if expansion did not happen. Expansion has
c:
                         just made it more difficult. This report should clearly
     .. 0-               state that these problems would still exist without
W'-           L"\
               C,""
                         expansion. The second report,   Performance Indicators , seems
       t3 .              to verify this by finding no statistical difference in pre-
UJ
a: c                     and post- expansion quality indicators. This should be
                         stated when cross-referencing the two reports.

              SPECIFIC ISSUES


              Page ii and Page 15 - Shaded Box: The  second sentence in the
              first paragraph is somewhat misleading as the Department never

              prepared a FY 1994 policy budget, only a baseline budget.

              Suggested replacement sentence: "These findings provided

                                       Page 2 - Byran B. Kitchell


information to these agencies for preparing future budgets and

planning for future expansions.


Page ii and Page 15 - Shaded Box: The recommendations concerning
facility purchases and the match requirement have been deleted in

light of passage of the Head Start Improvement Act. We suggest

not removing these recommendations, but changing them to reflect

the new legislation. Each issue has numerous implementation

problems and the IG may want to craft recommendations regarding

what types of safeguards ACF should put in place so Head Start '
fiscal integrity is assured. Perhaps these recommendations can

guide ACF in developing regulations for each of these issues.

The report states that over 80 percent of grantees interviewed

believed it would be advantageous to purchase property. The Head

start Improvement Act does ease the restrictions on purchasing

facilities.
P. 1 - Last sentence of first paragraph under "Backqround" -
Recommend changing last clause from "Head start addresses the

needs of the entire family" to "Head start identifies the

families I social services needs and assists them in meeting those
needs. "
P. 1 - First sentence under "The Head start Program" header -
Suggest clarifying the statement "Head Start is the only child

development program funded primarily by the Federal governent"

Even Start and Comprehensive Child Development Centers are among

other Federally funded child development programs.


P. 2 - Second sentence under "Head Start Expansion " header - A

Supplemental Authorization Act did not exist. The sentence could
be modified to read "The Dire Emergency Supplemental

Appropriation of 1990 marked the beginning of expansion for all

grantees and raised FY 1990 total funding to $1. 552 billion.
P. 2 - Fourth sentence under "Head Start Expansion " header ­

Suggest deleting the phrase " with the goal to serve all eligible

children (including 4- year-olds) by 1994" as no such goal is
found in the Human Services Reauthorization Act.


P. 2 - Please update the Fiscal Year 1993 information in the
"Head Start Expansion, 1990-1993" table with the Announcement

Date.  Also, "Funds Allocated to Expand Enrollment" is actually
$372, 706 000.
P. 2 - We recommend including an additional table to accompany
the existing "Head Start Expansion, 1990-1993" table to show

funds spent on cost of living and quality increases. - currently,
the Head Start statute requires 25 percent of the funding

increase over the previous year I s adjusted appropriation to be
set-aside for quality improvement. The amount of quality funds

that have gone to grantees is significant.

                                        -----------         -----------
                                                 Page 3 - Byran B. Kitchell


   Suggested table to insert:


                 BE START QUALITY IMPROVENTS, 1990-1993
                      Anouncement       COLA                Quality
                      Date                                  Improvement
Expansion             14/6/90                               $49, 000, 000
Expansion             6/12/90
Expansion III         undated                               $195, 000 000
Expansion             2/19/92           $62, 625, 000        $45, 910, 000
Expansion V           Fortcoming        $61, 945, 000       $127, 883, 000
   P. 3 - First sentence in first paragraph. We suggest clarifying

   what a " region  grantee " is. Also , adding the clause "
   required by statute" to the end of the sentence.


   Suggest stating in either the first or third paragraph that new

   grantees could only apply for funds in unserved counties, and

   funding has gone only to existing grantees in served counties.


   P. 5 - There appears to be some inconsistency in statements
   regarding grantees finding eligible children. The first sentence

   of the last paragraph states that " almost all grantees believe

   that there are sufficient children to warrant furter expansion"

   However, the third bullet , half-a- page above that statement,

   finds that more than a quarter of all grantees examined were

   unable to find eligible children. The    Performance Indicators

   report shows grantees at 99. 1 percent of full enrollment, a

   higher level than pre-expansion. Perhaps these findings are
   unclear and are not inconsistent; if so clarification is needed.


   Given the apparent inconsistencies regarding finding eligible

   children, perhaps the first bullet under "Findings" on page 

   "Some grantees experience difficulty enrolling children, " should

   be made conditional \
   P. 6 - section following "Only one- quarter of grantees indicated

   that they plan to serve all eligible 4- year olds by 1993" header

   - We suggest this be clarified to note that the grantee responses
   were recorded well in advance of any specific information about

   resource availability during FY 1993.


   P. 11 - The second paragraph under the "ACF Regional Offices
   Suggest a more flexible and fair allocation system" suggests that

   ACF should use 1990 instead of 1980 census data to aLlocate

   funding.                However, the Census Bureau had not released this data
   in time for Head Start to use it in their FY 1991 or FY 1992

   allocations. H ad Start now has the 1990 census information and

   used this data to altocate FY 1993 funds. Since the 1990 data is

   being used, the problem is solved and perhaps this paragraph

   should be eliminated. If the 
              paraqrap h remains, please add the
                                       Page   4 -   Byran B. Kitchell


sentence "Head start began using 1990 Census data for allocation

of FY 1993 funds as this was the first year the data was made

available to ACF. 


If you have any questions or concerns regarding these comments,

please contact Karen Shafer(690-6238) of my staff.

